Report on the Transfer of Funds to the
Department of Homeland Security for
Federal Protective Service Operations
 Report Number: A040113/B/F/F05017
          February 11, 2005




                  1
In addition to providing support services as established in the MOAs, GSA
continued to collect FPS related security fees as a portion of rent in Fiscal Year
2004. In turn, GSA transferred funds from the Federal Buildings Fund to DHS to
cover these FPS operations as required by the Department of Homeland Security
Appropriations Act of 2004.

Objectives, Scope, and Methodology

The objective of our audit was to answer the following questions as related to
GSA’s Fiscal Year 2004 Financial Statement Audit:

       How did GSA determine the amount to be transferred to DHS
       for FPS Operations and was the appropriate amount
       transferred?

       Did GSA collect more for security as a portion of rent than it
       transferred to DHS?

To accomplish our audit objectives, we:

   Interviewed officials from the Office of the Chief Financial Officer (OCFO) and
    the Office of the Public Buildings Service Chief Financial Officer;
   Reviewed legislation pertinent to the funding of DHS and GSA;
   Reviewed documentation supporting the transfer of funds from GSA to DHS;
    and
   Reviewed Federal Buildings Fund (FBF) income reports for Fiscal Year 2004.

Initially, our review was focused on the controls in place over the revenue and
expense cycles related to DHS services. During the course of our survey work,
we determined that GSA was continuing to perform accounting services for DHS,
and that in order to ensure proper separation of funds for the DHS revenue and
expense cycles, GSA established a separate account for DHS. While our survey
work identified issues with the open-items reconciliation as of September 30,
2003, we noted that this issue was previously identified as a material weakness
by PwC in their Fiscal Year 2003 Audit of GSA’s Financial Statements. We
recognized that in response to PwC’s finding, the OCFO had already initiated
corrective action to address this issue. As a result of the corrective action, PwC
determined that the open-items reconciliation issue was resolved during their
Fiscal Year 2004 Audit of GSA’s Financial Statements. Additionally, during our
work we were made aware that external audit organizations, including the
Government Accountability Office, were performing reviews of the creation of
DHS, and that these reviews did not identify any significant issues related to
accounting services, including those provided by GSA.




                                          2
                      Report on the Transfer of Funds to the
                      Department of Homeland Security for
                      Federal Protective Service Operations
                       Report Number: A040113/B/F/F05017
                                February 11, 2005


Report Distribution                                              Copies

Chief Financial Officer (B)                                        3

Assistant Inspector General for Auditing (JA)                      2

Assistant Inspector General for Investigations (JI)                1

Regional Inspector General for Auditing – Real Property (JA-R)     1

Audit Follow-Up and Evaluation Branch (BECA)                       1




                                         4
